b/tj-fadot,t^S 1

No.

20-6119

In The
SUPREME COURT OF THE UNITED STATES

In re. Nira Woods, Dr. - Petitioner,
VS.
The Superior Court of California - Respondent(s)

Petitioner (“Woods”) Motion for Leave to file 2nd Supplemental Brief
under Hon. US Supreme Court RULE 15.8
1. The said Supplemental Brief is based on Order dated 11/23/2020 not
available on 10/15/2020 the time of the Petitioner filing instant case;
2. Proof of service is attached;

date: 11/30/2020
Petitioner Woods

1

The instant said Supplemental Brief is based on Order dated
11/23/2020, the below APPENDIX E not available on 10/15/2020 the
time of the Petitioner filing instant case;

INDEX TO SUPLEMENT APPENDIX E
APPENDIX E - Order dated 11/23/2020; California Superior Court
Burbank Courthouse; in which, Denied Woods’ Ex-Parte App. (filed on
11/16/2020) For PROTECTIVE ORDER and Relief,... “to disqualify
Superior Court Judge: Hon. Judge William D. Stewart, Presiding;
based on violation of Woods’ Federal Due Process, and Federal
Constitution; to include: 1st, 4th, 5th, and 14th Amendment(s); and
violation of C.C.P. § 170.6.;” [bold highlighted]
Appendix E is on instant page

6

SUPLEMENT
to

FACTS / STATEMENT OF THE CASE
1. The said Woods’ Ex-Parte was: “Electronically FILED by Superior
Court of California, County of Los Angeles on 11/16/2020 10:56 AM
Sherri R. Carter, Executive Officer/Clerk of Court, by M. Scott,Deputy
Clerk”;
2. Said Ex-Parte incorporates in full the Woods’ DECLARATION
dated 11/15/2020 that was: “Electronically FILED by Superior Court of
2

California, County of Los Angeles on 11/16/2020 10:18 AM Sherri R.
Carter, Executive Officer/Clerk of Court, by M. Scott,Deputy Clerk”;
3. On 11/06/2020, a Surprise renewal of the Hon. Judge Stewart’s
Presiding in case 20TRCV00564, unlawfully made, since on 10/08/2020
Hon. Judge Stewart accented by his own declaration/Order, the C.C.P. §
170.6, a peremptory challenge with compliance to Woods’ Request. To be
along the Federal Laws and Federal Constitution/Due Process; instant
case 20-6119: APPENDIX C recorded that; therefor in order to reverse
the accepted a peremptory challenge , Woods had to consent; which
Woods did not; and no Due Process took place to accept consent; and
Woods found about it, on “PROCEEDINGS HELD” listed on Docket of
case 20TRCV00564; [The Superior Court of California, County of Los
Angeles,

http://www.lacourt.org/casesummarv/ui/casesummarv.asnx?!:

in which in a surprise, the Hon. Judge Stewart Preside on 11/23/2020 at
08:30AM in Department B; and all of his surprised Rulings in; till today;
4. And in response to Woods’ Request for a Protective and Relief order
from such violation of our federal Constitution / Due process and the , the
C.C.P. § 170.6; The Hon. Judge Kralik [APPENDIX E], issued an Order
that: “The Court finds that Judge William Stewart is not a party to this
case”. And therefore Woods’ Ex-Parte motion is denied; In effect making
the “C.C.P. § 170.6” meaningless along our federal Constitution/Due
process; why sign or request a C.C.P § 170.6, when it can be breached
any time for any reason. Woods Ex-Party App. Was mischaracterized.
To Justify the said denial; even saying that Woods failed to appear, when
Woods complied with Woods’ Doctor instruction to avid traveling long
3

distances; [the Doctor’s instructions were Electronically FILED by
Superior Court of California, County of Los Angeles on 10/20/2020 07:12
AM Sherri R. Carter, Executive Officer/Clerk of Court, by N. Le,Deputy
Clerk]. Which the two Hon. Judge could not care less, and no Court
Reporter ordered to such important hearings.
5. No additional supplements at this time;
6. Therefore, in great respect, Woods is asking and also praying to
have the Hon. US Supreme Court and Hon. Justices granted this Motion;
Date: 11/30/2020

Plaintiff/Petitioner/Appellant Woods

4

CERTIFICATE OF COMPLIANCE
Pursuant to rule 8.204(c) of the California Rules of Court, I hereby
certify that this brief contains_552__ words, including footnotes. In
making this certification, I have relied on the word count of the
computer program used to prepare the brief.
Respectfully submitted on 11/30/2020

Petitioner Nira Woods, Dr.

Attachment
p. 6

APPENDIX E - Order dated 10/30/2020;

5

SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division
North Central District, Burbank Courthouse, Department B
20TRCV00564
NIRA WOODS, DR. vs DEPARTMENT OF HOUSING AND
COMMUNITY DEVELOPEMENT
Judge: Honorable John J. Kralik
Judicial Assistant: W. Delgado
Courtroom Assistant: None

November 23,2020
8:30 AM

CSR: None
ERM: None
Deputy Sheriff: None

APPEARANCES:
For Plaintiffs): No Appearances
For Defendants): No Appearances

NATURE OF PROCEEDINGS: Hearing on Ex Parte Application Plaintiffs Ex Parte
Application for Protective and Relief Order to Disqualify Judge William D. Stewart Based on
Federal Due Process
The above ex parte application is called for hearing. Plaintiff fails to appear.
The Court reads and considers the moving papers. The Court Ends that Judge William Stewart is
not a party to this case.
The Ex Parte Application for protective and Relief order to disqualified Hon. William D.
Stewart, Presiding. Judge filed by Nira Woods, Dr. on 11/16/2020 is Denied.
Plaintiff is ordered to give notice.
Certificate of Mailing is attached.

Minute Order

Page 1 of 1

APPENDIX E

t

SUHH-aOtMAl
SHORT TITLE: NIRA WOODS, OR. VS DEPARTMENT OF HOUSING ANO
COMMUNITY OEVELOPEMENT

CASE NUMBER:

20TRCV00564

INSTRUCTIONS FOR USE
-> This form may be used 88 an attachment to any summons tf space does not permit the Hating of aH parties on the summons.
If this attachment is usad, insert tha following statement in the plaintiff or defendant box on the summons: ‘AckiWonal Partfee
Attachment form Is attached."
List additional parties (Check only one box. Uae a asperate page tar each type ctparty.):
I

(1)
(2)

(3)

(4)

(5)
(6)
(7)

(8)

(9)
(10)

1 Plaintiff

IX l Defendant

I

I Cross-Complainant

I

I Cross-Defendant

Department of Housing and Community Development;
Dep. Of Housing & Community Development Legal Affairs Division,
2020 W. El Camino Avenue, Suite 525, Sacramento, CA 95833
Richard Weinert, an individual;
Dep. Of Housing & Community Development Legal Affairs Division,
2020 W. El Camino Avenue, Suite 525, Sacramento, CA 95833
Kim Borden, an individual;
Dep. Of Housing & Community Development Legal Affairs Division,
2020 W. El Camino Avenue, Suite 525, Sacramento, CA 95833
Edwin G. Galindo, an individual;
Dep. Of Housing & Community Development Legal Affairs Division,
3737 Main Street, Suite 400, Riverside, CA 92501
Chandler’s Sand & Gravel, Inc.;
17932DaimlerStreet, Irvine, CA92614;
The Management^Skyline Mobile Park;
2550 PCH., Torrance, CA 90505
Victor Guzman, an Individual;
Management, Skyline Mobile Park,
2550 PCH, Torrance, CA 90505
Trade Flaker, an Individual;
Management, Skyline Mobile Park,
2550 PCH, Torrance, CA 90505
Manual Guzman, an Individual;
Management, Skyline Mobile Park,
2550 PCH, Torrance, CA 90505
Janice Torres, an Individual;
Management, Skyline Mobile Park,
2550 PCH, Torrance, CA 90505

Pag*
Farm Adopted tor MmMny Uw
JviMd Oaunol of Mhn*i

8u»MB0(A»[iU¥.j«i*r i. anon

1__ of

2

ADDITIONAL PARTIES ATTACHMENT
Attachment to 8ummona

Forvour nratairilonafid wtvicv. nftfean mu Hm Qm,

TM* Foam button altar you haw* printed tha form.

SWl

I

SUM-200(A)
SHORT TITLE:

NIRA WOODS, DR. VS DEPARTMENT OF HOUSING AND
COMMUNITY DEVELOPEMENT

CASE NUMflBt

20TRCV00564

INSTRUCTIONS FOR USE
-» This form may be used as an attachment to any summons if space doe* not permft the listing of all parties on tha summons.
-»If this attachment is used, Insert the following statement in the plaintiff or defendant box on the summons: “Additional Parties
Attachment form Is attached.*
List additional parties fCftec* only one boor. Use a separata page for each type ofparty.):
I

(11)
(12)

(13)
(14)

(15)

(16)

(17)

(18)
(19)

(20)
(21)

I Plaintiff

I3t I Defendant

I

I Crass-Complainant

I

I Cross-Defendant

N & K Commercial Property, Inc.,
3424 Carson Street, Suite 280, Torrance, CA 90503
Ken Miyake, an Individual;
N & K Commercial Property, Inc.,
3424 Carson Street, Suite 280, Torrance, CA 90503
Dowdall Law Offices, A.P.C.,
284 North Glassell Street
Orange, California 92866-1409
TerryR. Dowdall, an individual;
Dowdall Law Offices, A.P.C.,
284 North Glassell Street
Orange, California 92866-1409
Robin G. Erfler, an Individual;
Dowdall Law Offices, A.P.C.,
284 North Glassell Street
Orange, California 92866-1409
Torrance Police Department; & Department Of Mental Health / Mental Health Department;
3300 Civic Center Drive,
Torrance, CA 90503, (310) 328-3456
Jon Megeff- Deputy Chief / Police Department
3300 Civic Center Drive,
Torrance, CA 90503
Tsae Way, an Individual;
Skyline Mobile Park, 2550 Pacific Cost Hwy.,
Spc. 69, Torrance, CA 90505
Renee Baldwin, an Individual;
Skyline Mobile Park, 2550 Pacific Cost Hwy.,
Spc. 70, Torrance, CA 90505
Robin Famighetti, an individual;
Torrance, Courthouse, 825 Maple Avenue, Dep. J, Torrance, CA 90505
Dose 20-50;
Defendants.
Fogs 2__ of

2
1c*1

Form Adopted fcr MvuMary Dm
JudMd Conti of Ctftante
SUiMKKA) flte*. Jteiutey 1.2007]

ADDmONAL PARTIES ATTACHMENT
Attachment to Summons
For your protection and privacy, pleasa pioaa the Cleor
This Form button after you havo printod tho form.

